Office of Audits and Evaluations
Report No. AUD-12-005


The FDIC’s Data Submissions through the
Governmentwide Financial Report System
as of September 30, 2011




                                   January 2012
                                    Executive Summary
                                     The FDIC’s Data Submissions through the
                                     Governmentwide Financial Report System as of
                                     September 30, 2011
                                                                                    Report No. AUD-12-005
                                                                                             January 2012

Why We Did The Audit
Many agencies, including the FDIC, were required to provide financial information for the fiscal year
ended September 30, 2011 to the Department of the Treasury (Treasury) for inclusion in the annual
Financial Report of the United States Government (the 2011 Financial Report). Such agencies are
referred to as “verifying agencies.” The Treasury Financial Manual (TFM) describes the roles of agency
Chief Financial Officers (CFO) and Inspectors General (IG) in processing such information through the
Treasury’s automated financial consolidation and reporting tool called the Governmentwide Financial
Report System (GFRS). Because the FDIC operates on a calendar-year basis, the FDIC IG’s role was
limited to providing audit assurance on material line items (but not opining on agency financial
information), submitting the FDIC’s financial information through the GFRS, and providing copies of
certain documentation to various federal entities.

The Government Accountability Office (GAO) conducts the annual audit of the financial statements of
the Deposit Insurance Fund and the Federal Savings and Loan Insurance Corporation Resolution Fund.
GAO officials advised us that they would provide audit assurance on material line items if deemed
essential by the Treasury. Accordingly, our performance audit objective was to verify whether the
FDIC’s summary general ledger information agreed with summary information entered into the GFRS for
the fiscal year ended September 30, 2011. This audit did not constitute an audit of financial statements in
accordance with generally accepted government auditing standards. As such, we did not render an
opinion on the FDIC’s internal controls over financial reporting or over its financial management
systems.


Background
Treasury’s Financial Management Service maintains the TFM, which is the official publication for
financial accounting and reporting of all receipts and disbursements in the federal government. The TFM
describes, among other things, how agencies were to provide data for the 2011 Financial Report using the
GFRS. The TFM includes a prescribed format of financial statements (referred to as a Closing Package
methodology) to be used in preparing the 2011 Financial Report. Verifying agencies, including the
FDIC, were required to submit their financial information using the Closing Package methodology within
the GFRS. The CFO of each verifying agency was required to prepare and submit the Closing Package
information for FYs 2011 and 2010 in the GFRS at the department level. The CFOs were also required to
verify that the financial information submitted in the GFRS was consistent with the agency’s
comparative, audited consolidated, department-level financial statements. By consolidating the financial
information of the DIF and FRF, the FDIC reports at the department level for purposes of the TFM.

Agency IGs were required to opine on their agency’s Closing Package data, or apply alternate TFM-
prescribed audit procedures if the agency operates with a year end other than September 30 (such as the
FDIC). Further, the IGs were required to submit, among other things, the following information to the
Treasury, GAO, Office of Management and Budget, and/or Department of Justice:

       Closing Package Financial Statement Report (Report No. GF003F),
       Closing Package Line Reclassification Summary Report (Report No. GF003G), and
       Agency legal and management representation letters.




                                 To view the full report, go to www.fdicig.gov
                                    The FDIC’s Data Submissions through the
   Executive Summary                Governmentwide Financial Report System as of
                                    September 30, 2011
                                                                                  Report No. AUD-12-005
                                                                                           January 2012


Audit Results
We verified that the FDIC’s summary general ledger information agreed with summary information
entered into the GFRS for the fiscal year ended September 30, 2011. Specifically, the FDIC’s summary
general ledger information agreed with data contained in the two GFRS reports used to compile the 2011
Financial Report: Report No. GF003F and Report No. GF003G. As part of our work, we verified that the
FDIC’s data submissions in GFRS for the year ended December 31, 2010 agreed with the Corporation’s
audited financial statements. In that regard, the GAO expressed an unqualified opinion on the financial
statements of the Deposit Insurance Fund and the Federal Savings and Loan Insurance Corporation
Resolution Fund in its March 2011 report, entitled Financial Audit: Federal Deposit Insurance
Corporation’s Funds 2010 and 2009 Financial Statements (Report No. GAO-11-412). In addition, we
provided the requisite reports and representation letters to the Treasury, GAO, Office of Management and
Budget, and Department of Justice in accordance with TFM guidance.


Recommendations and Management Comments
During the course of our field work, we reviewed preliminary financial information prepared by the FDIC
for submission in the GFRS. We coordinated closely with the Division of Finance (DOF) and Legal
Division officials to resolve any apparent discrepancies in the information before the final Closing
Package information was submitted in the GFRS. As a result, our report contains no recommendations.
DOF officials expressed general agreement with the audit results and elected not to provide a formal
response to a draft of the report.




                                To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                                      Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                         Office of Inspector General


DATE:                                     January 11, 2012

MEMORANDUM TO:                            Craig R. Jarvill
                                          Director, Division of Finance


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  The FDIC’s Data Submissions through the Governmentwide
                                          Financial Report System as of September 30, 2011
                                          (Report No. AUD-12-005)


Many federal agencies, including the FDIC, were required to provide financial information for the
fiscal year (FY) ended September 30, 2011 to the Department of the Treasury (Treasury) for
inclusion in the annual Financial Report of the United States Government (the 2011 Financial
Report). The Treasury Financial Manual (TFM) describes the roles of agency Chief Financial
Officers (CFO) and Inspectors General (IG) in processing such information through the Treasury’s
automated financial consolidation and reporting tool called the Governmentwide Financial Report
System (GFRS). The FDIC’s CFO, through the Division of Finance (DOF), is responsible for
recording the Corporation’s financial information in the GFRS. Because the FDIC operates on a
calendar-year (CY) basis, the FDIC IG’s role was limited to providing audit assurance on material
line items (but not opining on agency financial information), submitting the FDIC’s financial
information through the GFRS, and providing copies of certain documentation to various federal
entities.

The Government Accountability Office (GAO) conducts the annual audit of the financial
statements of the Deposit Insurance Fund (DIF) and the Federal Savings and Loan Insurance
Corporation Resolution Fund (FRF).1 GAO officials advised us that they would provide audit
assurance on material line items if deemed essential by the Treasury. Accordingly, our
performance audit objective was to verify whether the FDIC’s summary general ledger
information agreed with summary information entered into the GFRS for the FY ended
September 30, 2011. This audit did not constitute an audit of financial statements in accordance
with generally accepted government auditing standards. As such, we did not render an opinion on
the FDIC’s internal controls over financial reporting or over its financial management systems.
Details on our objective, scope, and methodology are contained in the Appendix of this report.




1
  Section 17 of the Federal Deposit Insurance Act, as amended, requires the GAO to conduct an annual audit of the
financial transactions of the Corporation, DIF, and FRF in accordance with generally accepted government
auditing standards. According to the Chief Financial Officers Act of 1990, the GAO may audit a financial
statement of a government corporation and such audit will be in lieu of an audit of the financial transactions of the
government corporation.
BACKGROUND

Section 405 of the Government Management Reform Act of 1994 requires the Secretary of the
Treasury to annually prepare and submit to the President and the Congress an audited financial
statement for the preceding FY. This statement must cover all accounts and associated activities
of the executive branch of the federal government. Section 114 of the Budget and Accounting
Procedures Act of 1950, as codified, requires executive branch agencies to furnish agency
financial and operational information as the Secretary of the Treasury may require.2

Treasury’s Financial Management Service (FMS)3 maintains the TFM, which is the official
publication for financial accounting and reporting of all receipts and disbursements in the federal
government. The TFM, as updated on June 16, 2011, describes, among other things, how
agencies were to provide data for the 2011 Financial Report using the GFRS. The chapter
includes a prescribed format of financial statements (referred to as a Closing Package
methodology) to be used in preparing the 2011 Financial Report. Verifying agencies, including
the FDIC, were required to submit their financial information using the Closing Package
methodology within the GFRS. The CFO of each verifying agency4 was required to prepare and
submit the Closing Package information for FYs 2011 and 2010 in the GFRS at the department
level.5 The CFOs were also required to verify that the financial information submitted in the
GFRS was consistent with the agency’s comparative, audited consolidated, department-level
financial statements.

Agency IGs were required to opine on their agency’s Closing Package data, or apply alternate
TFM-prescribed audit procedures if the agency operates with a year end other than September 30
(such as the FDIC). Further, the IGs were required to submit, among other things, the following
information to the Treasury, GAO, Office of Management and Budget (OMB), and/or Department
of Justice:

         Closing Package Financial Statement Report (Report No. GF003F),
         Closing Package Line Reclassification Summary Report (Report No. GF003G), and
         Agency legal and management representation letters.

The FDIC’s legal representation letter addresses any new material loss contingencies and any
changes in amounts or categories of contingent losses (i.e., from remote loss to possible loss, or
possible loss to probable loss) for the DIF and FRF since December 31, 2010 other than as
reflected in the September 30, 2011 financial statements of the FDIC. The FDIC’s management
representation letter provides representations about the September 30, 2011 financial data in the
GFRS with respect to presentation and disclosure, intra-governmental activities, internal control,
fraud risks, and compliance with applicable laws and regulations.

2
  The statutes mentioned in this paragraph have been codified to title 31 of the United States Code. While the
FDIC is generally not an executive agency for purposes of title 31, that title makes an exception in this instance.
3
  FMS is a bureau within the Treasury. FMS’s responsibilities include providing governmentwide accounting and
reporting services.
4
  Verifying agencies, which include the FDIC, are those required by the TFM to verify and submit a Closing
Package and provide CFO representations for federal intragovernmental activity and balances.
5
  By consolidating the financial information of the DIF and FRF, the FDIC reports at the department level for purposes
of the TFM.


                                                          2
RESULTS OF AUDIT

We verified that the FDIC’s summary general ledger information agreed with summary
information entered into the GFRS for the FY ended September 30, 2011. Specifically, the
FDIC’s summary general ledger information agreed with data contained in the two GFRS reports
used to compile the 2011 Financial Report: Report No. GF003F and Report No. GF003G. As
part of our work, we verified that the FDIC’s data submissions in GFRS for the year ended
December 31, 2010 agreed with the Corporation’s audited financial statements.6 In that regard,
the GAO expressed an unqualified opinion on the financial statements of the DIF and FRF in its
March 2011 report, entitled Financial Audit: Federal Deposit Insurance Corporation’s Funds
2010 and 2009 Financial Statements (Report No. GAO-11-412).

During the course of our field work, we reviewed preliminary financial information prepared by
the FDIC for submission in the GFRS. We coordinated closely with DOF and Legal Division
officials to resolve any apparent discrepancies in the information before the final Closing Package
information was submitted in the GFRS. As a result, our report contains no recommendations. In
addition, we provided the requisite reports and representation letters to the Treasury, GAO, Office
of Management and Budget, and Department of Justice in accordance with TFM guidance.


MANAGEMENT COMMENTS

DOF officials expressed general agreement with the audit results and elected not to provide a
formal response to a draft of the report.




6
  We reviewed certain schedules in the GFRS that the FDIC is required to prepare pertaining to this audited
financial information and noted a number of apparent discrepancies. Because the data on these schedules were not
used to compile the 2011 Financial Report, we concluded that the apparent differences were inconsequential.


                                                       3
                                                                                       APPENDIX

Objective

The audit objective was to verify whether the FDIC’s summary general ledger information agreed
with summary information entered into the GFRS for the FY ended September 30, 2011.

We conducted this performance audit from October through November 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provided a reasonable basis for our findings and conclusions based on our audit objective.

Scope and Methodology

Because the FDIC operates on a CY basis, we were not required to opine on the FDIC’s financial
information for the FY ended September 30, 2011. In accordance with the TFM, the FDIC IG is
required to provide audit assurance on FY 2011 material line items. The GAO conducts the
annual audit of the FDIC’s DIF and FRF financial statements and indicated that it would provide
assurance on any material FDIC line items, if deemed essential by the Treasury.

To accomplish the audit objective, we:

   Reviewed relevant requirements in the TFM pertaining to agency IGs, including requirements
    related to the Closing Package, to gain a proper understanding of those requirements.

   Obtained and reviewed the FDIC’s FY 2011 summary general ledger information. Our review
    included tracing FY 2011 beginning balances to FY 2010 ending balances. We also ensured
    that that the CY 2010 financial information recorded in the summary general ledger agreed
    with audited amounts.

   Evaluated the reasonableness of significant adjustments made to FY 2011 balances. We used
    GAO’s projected materiality determinations for the FDIC’s in-process CY 2011 financial
    statements audit as a basis for determining the significance of adjustments.

   Verified that the FDIC FY 2011 trial balance retrieved independently from the FDIC’s New
    Financial Environment (NFE) General Ledger agreed with the FY 2011 general ledger trial
    balance used by DOF to generate GFRS submissions.

   Verified the completeness of the FDIC’s “cross-walk” between the NFE summary general
    ledger accounts and the United States Government Standard General Ledger (USSGL)
    accounts used to compile GFRS data by tracing the general ledger account balances for
    FY 2011 to the corresponding USSGL accounts. We did not review specific summary general
    ledger or USSGL account definitions or assess the appropriateness of the FDIC’s
    determination of the summary general ledger accounts that were assigned to USSGL account
    classifications.



                                                 4
                                                                                    APPENDIX


   Recalculated (for all GFRS-relevant reporting periods) the consolidation of the financial
    information of the DIF and FRF, which were required to be reported in the aggregate in the
    GFRS.

   Interviewed DOF, Legal Division, and GAO staff to resolve apparent discrepancies in
    financial information or other matters during the audit.

   Completed a final review of the FDIC’s GFRS data submission by retrieving the GFRS
    modules and ensuring that the FY 2011 data contained therein agreed with supporting
    documentation and that the ending FY 2010 data agreed with the beginning FY 2011 data.




                                                5
